No. 20-289
In the

Supreme Court of the United States
RETIREMENT PLANS COMMITTEE OF IBM, et al.,
Petitioners,
v.
LARRY W. JANDER, et al.,
Respondents.
On Petition for a Writ of Certiorari to the United
States Court of A ppeals for the Second Circuit

BRIEF IN OPPOSITION

Samuel E. Bonderoff
Counsel of Record
Zamansky LLC
50 Broadway, 32nd Floor
New York, NY 10004
(212) 742-1414
samuel@zamansky.com
Counsel for Respondent

298427

A
(800) 274-3321 • (800) 359-6859

i
QUESTION PRESENTED
In Ret. Plans Comm. of IBM v. Jander, 140 S. Ct. 592
(2020), this Court granted certiorari to assess what kind
of factual allegations are sufficient under this Court’s
holding in Fifth Third Bancorp v. Dudenhoeffer, 573 U.S.
409 (2014), that a plaintiff alleging a breach of the duty
of prudence against the fiduciary of an employee stock
option plan (“ESOP”) must propose an alternative action
the fiduciary should have taken that she could not have
believed would do “more harm than good” to the ESOP
and its participants. Once the case was before the Court,
however, Petitioners advanced a new argument that
exceeded the scope of the question presented; the United
States Government intervened in the case on behalf of
neither party and did the same. This Court recognized
that these new arguments were not addressed by the
lower court and so were procedurally improper, but they
“might well be relevant” and should be part of any future
discussion of the Dudenhoeffer standard. The case was
remanded to the Second Circuit to decide whether to
consider these arguments.
The Second Circuit held that those arguments had
not been properly raised, so it declined to address them.
Petitioners have now returned with a virtually identical
proposed issue for certiorari; they have also asked this
Court to ignore its prior ruling and consider the new
arguments. Thus, the questions presented are:
1. Whether Dudenhoeffer’s “more harm than good”
standard can be evaluated without reference to the
argument that ESOP fiduciaries have no obligation to act
on inside information and the Government’s argument

ii
that the federal securities laws should determine the
parameters of plausible duty-of-prudence claims against
ESOP fiduciaries.
2. Whether this Court can and should act as a court
“of first view” with respect to an argument not addressed
by the lower court and deemed forfeited, particularly when
Petitioners do not dispute the lower’s court procedural
ruling declining to address the argument.

iii
TABLE OF CONTENTS
Page
QUESTION PRESENTED . . . . . . . . . . . . . . . . . . . . . . . . i
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . .  iii
TABLE OF CITED AUTHORITIES . . . . . . . . . . . . . . . iv
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . . . 1
I.

Factual and Legal Background . . . . . . . . . . . . . . 1

II. Procedural Background  . . . . . . . . . . . . . . . . . . . . 3
REASONS TO DENY THE PETITION . . . . . . . . . . . . 6
I.

Petitioners’ Second Question Presented Is
Procedurally Defective  . . . . . . . . . . . . . . . . . . . . . 6

II. This Case Is Not the Right Vehicle to
Properly Address Dudenhoeffer’s “More
Harm Than Good” Standard  . . . . . . . . . . . . . . . . 9
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13

iv
TABLE OF CITED AUTHORITIES
Page
CASES
Allen v. Wells Fargo & Co.,
967 F.3d 767 (8th Cir. 2020) . . . . . . . . . . . . . . . . . . . . 11
Cutter v. Wilkinson,
544 U.S. 709 (2005) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
Dormani v. Target Corp.,
2020 WL 4289987 (8th Cir. July 28, 2020) . . . . . . . . 11
F. Hoffmann-La Roche Ltd. v. Empagran, S.A.,
542 U.S. 155 (2004) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
Fifth Third Bancorp v. Dudenhoeffer,
573 U.S. 409 (2014)  . . . . . . . . . . . . . . . . . . . . . . . passim
Norton v. Sam’s Club,
145 F.3d 114 (2d Cir. 1998) . . . . . . . . . . . . . . . . . . . . . . 7
Pegram v. Herdrich,
530 U.S. 211 (2000) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
Ret. Plans Comm. of IBM v. Jander,
139 S. Ct. 2667 (2019) . . . . . . . . . . . . . . . . . . . . . . . . . . 4
STATUTES AND OTHER AUTHORITIES
29 U.S.C. § 1104(a)(1)(B)  . . . . . . . . . . . . . . . . . . . . . . . . . . 1
29 U.S.C. § 1104(a)(2) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

1
STATEMENT OF THE CASE
I.

Factual and Legal Background

1. Respondents are former employees of International
Business Machine Corporation (“IBM”) who bought and
held shares in IBM’s ESOP, which invested primarily
in IBM’s publicly traded stock. Pet. App. 14. Petitioners
are fiduciaries of the ESOP pursuant to the Employee
Retirement Income Security Act of 1974 (“ERISA”).
Section 1104(a)(1)(B) of ERISA required that Petitioners
oversee the ESOP “with the care, skill, prudence, and
diligence under the circumstances then prevailing that a
prudent man acting in a like capacity and familiar with
such matters would use in the conduct of an enterprise of
like character and with like aims[.]” 29 U.S.C. § 1104(a)
(1)(B). As this Court held in Dudenhoeffer, that duty of
prudence is the same for ESOP fiduciaries as for ERISA
fiduciaries overseeing any other type of investment.
Dudenhoeffer, 573 U.S. at 412 (ESOP fiduciaries “are
subject to the same duty of prudence that applies to
ERISA fiduciaries generally, except that they need not
diversify the fund’s assets” (citing 29 U.S.C. § 1104(a)(2))).
To state a claim that an ESOP fiduciary has breached
his duty of prudence, “a plaintiff must plausibly allege
an alternative action that the defendant could have taken
that would have been consistent with the securities laws
and that a prudent fiduciary in the same circumstances
would not have viewed as more likely to harm the [ESOP]
than to help it.” Id. at 428. If the plaintiff alleges that the
ESOP fiduciary should have made a public disclosure to
correct an artificially inflated stock price, a lower court
should consider whether “publicly disclosing negative
information would do more harm than good to the [ESOP]

2
by causing a drop in the stock price and a concomitant drop
in the value of the stock already held by the [ESOP].” Id.
at 429-30.
2. From January 21, 2014 through October 20, 2014,
IBM’s stock traded at artificially high values because
IBM concealed from the public the true value of its
Microelectronics business, which it had secretly put up for
sale. Pet. App. 15. After publicly valuing Microelectronics
at more than $2 billion, IBM announced in October 2014
that another company would be acquiring Microelectronics,
and that IBM would pay that company $1.5 billion for it
to take the business, while IBM announced a $4.7 billion
pre-tax charge. Id. IBM’s stock price plummeted at
the news that it been radically overstating the value of
Microelectronics, which not only was not worth $2 billion,
but was, in fact, effectively worthless. Id.
3. Petitioners were the Chief Financial Officer,
General Counsel and Chief Accounting Officer of IBM
during this time in addition to being fiduciaries of IBM’s
ESOP. Pet. App. 14-15. Thus, they were well-situated to
be aware of IBM’s efforts to sell Microelectronics as well
as IBM’s significant overstatement of the business’s actual
value. Id. Petitioners could have disclosed the truth about
the value of Microelectronics to the public at the beginning
of 2014, when the attempt to sell the business had already
been in progress for many months. Id. 16. Because IBM
was intent on selling Microelectronics, disclosure of its
true value was all but inevitable. Id. 30-31. Nevertheless,
Petitioners took no action; IBM’s stock price plummeted
and remained depressed for years afterward.

3
II. Procedural Background
1. Respondents brought a claim in the District
Court for the Southern District of New York, alleging
that Petitioners’ inaction in the face of IBM’s inevitable
stock drop was a breach of their fiduciary duty of
prudence under ERISA. Pet. App. 16. Respondents
could have disclosed the truth about Microelectronics,
thereby preventing ESOP participants from buying
shares at artificially inflated prices and from suffering
the stock’s long-term failure to make up its losses owing
to the reputational harm IBM’s lack of trustworthiness
caused. Id. 27-31. Petitioners could have accomplished
this disclosure through IBM’s periodic disclosure process
under the securities laws. Id. 27-28. Such an action would
still be taken in their fiduciary capacities based on their
fiduciary obligations, and, because it would not have been
prohibited by the securities laws, would not have run afoul
of Dudenhoeffer. Id. 9 (Kagan, J., concurring).
2. The district court nevertheless found Respondents’
allegations to be insufficient under Dudenhoeffer’s “more
harm than good” standard. Pet. App. 16-17. Respondents
appealed the decision to the Second Circuit, which
reversed, holding that Respondent’s general and specific
allegations, particularly regarding the inevitability of the
sale of Microelectronics, and, therefore, the disclosure
of its true value, were sufficient when “considered in
combination” to satisfy Dudenhoeffer. Id. 26-27.
3. Petitioners appealed that decision to this Court,
characterizing the Second Circuit’s holding as an
endorsement of “generalized allegations” being sufficient
under Dudenhoeffer. Pet. 14. Respondents disputed that

4
characterization, noting that the Second Circuit’s holding
was based on Respondent’s more general allegations and a
number of allegations unique to the conduct of Petitioners
and IBM. See Br. for Resp’ts 45-57; Br. in Opp. to Pet.
10-23. Certiorari was granted as to Petitioners’ limited
question about the sufficiency of “generalized allegations”
under Dudenhoeffer. See Ret. Plans Comm. of IBM v.
Jander, 139 S. Ct. 2667 (2019).
4. In their mer its br ief, however, Petitioners
broadened their arg uments beyond the question
presented, arguing “that ERISA imposes no duty on an
ESOP fiduciary to act on inside information.” Pet. App.
6. The Government intervened in the case on behalf of
neither side, asserting its own novel interpretation of the
Dudenhoeffer standard “that an ERISA-based duty to
disclose inside information that is not otherwise required
to be disclosed by the securities laws would ‘conflict’ at
least with ‘objectives of’ the ‘complex insider trading
and corporate disclosure requirements imposed by the
federal securities laws[.]” Id. (quoting Dudenhoeffer,
573 U.S. at 429). Respondents opposed each of these
arguments. Petitioners’ new argument was misguided
because it constituted a fundamental misunderstanding
of this Court’s holding in Pegram v. Herdrich, 530 U.S.
211 (2000), and because it undermined the very basis for
the standard enunciated in Dudenhoeffer. Br. for Resp’ts
38-45. After all, if an ESOP fiduciary was never required
to act on inside information, then the entire premise of
Dudenhoeffer’s “more harm than good” standard was
pointless. See Pet. App. 8-9 (Kagan, J., concurring). The
Government’s argument, which attempted to impose the
pleading standards of the securities laws on ERISA,
ultimately led to the same result—an approach that “would

5
mostly wipe out [the] central aspect of the Dudenhoeffer
standard.” Id. (citation omitted).
5. Respondents also argued, and the Court agreed,
that these arguments had not been addressed by the
Second Circuit and went beyond the question presented.
Pet. App. 6-7. Rather, the Court vacated the Second
Circuit’s opinion and remanded the case so that the Second
Circuit could decide “whether to determine [the] merits”
of these new arguments, “taking such action as it deems
appropriate.” Id. 7.
6. The Court could have declined to consider these
newly-raised arguments while ruling on the question
presented regarding “generalized allegations” under
Dudenhoeffer, but it elected not to do so. Noting that these
new arguments, particularly the Government’s, “might
well be relevant” to the interpretation and application
of the “more harm than good” standard, this Court sent
the case back to the Second Circuit, recognizing the
inadequacy of a decision that addresses the Dudenhoeffer
standard but does not take into account these additional
arguments. Pet. App. 7 (quoting Dudenhoeffer, 573 U.S.
at 429 (internal quotation marks omitted)).
7. On remand, the Second Ci rcuit requested
supplemental briefs from the parties and the Government
regarding Petitioners’ and the Government’s new
arguments, including whether these issues had been
properly raised or were forfeited. Pet. App. 3. The
Second Circuit found that “[t]he arguments raised in the
supplemental briefs either were previously considered
by this Court or were not properly raised. To the extent
that the arguments were previously considered, we

6
will not revisit them. To the extent that they were not
properly raised, they have been forfeited, and we decline
to entertain them.” Id. (citation omitted). The Second
Circuit reinstated its prior opinion. Id.
REASONS TO DENY THE PETITION
I.

Petitioners’ Second Question Presented Is
Procedurally Defective

Petitioners make only a cursory effort to persuade
the Court that their second question presented merits
review—unsurprisingly so, because the issue they purport
to raise is procedurally inappropriate for resolution by
this Court.
As Petitioners acknowledge, this Court previously
chose not to rule on the question whether “‘ERISA
imposes no duty on an ESOP fiduciary to act on inside
information[.]’” Pet. 15-16 (quoting Pet. App. 6). Because
this question went beyond the scope of the question
Petitioners had actually presented and had not been
raised in the lower court, the Court concluded that “the
Second Circuit did not address these arguments, and,
for that reason, neither shall we.” Pet. App. 6 (quoting F.
Hoffmann-La Roche Ltd. v. Empagran, S.A., 542 U.S.
155, 175 (2004) (internal quotation marks and brackets
omitted)). The case was remanded to the Second Circuit
to determine whether this argument should be addressed.
Id.1
1. Respondents have already set forth in prior briefing before
this Court the reasons why Petitioners’ argument is meritless. See
Br. for Resp’ts 38-45.

7
The Second Circuit decided that Petitioners’ argument
about whether ERISA imposes a duty on ESOP fiduciaries
to act on inside information “was not properly raised,”
and, therefore, was “forfeited[.]” Pet. App. 3 (citing
Norton v. Sam’s Club, 145 F.3d 114, 117 (2d Cir. 1998)).
The Second Circuit “decline[d] to entertain” Petitioners’
new argument. Id.
Petitioners now suggest that, because their argument
about ESOP fiduciaries’ obligation to act on inside
information “was pressed in the supplemental briefing”
that was submitted to the Second Circuit after this Court
remanded the case, “there is no obstacle to this Court’s
review” of that issue. Pet. App. 36. Petitioners are wrong
for at least two reasons.
First, this Court has already held that it will not
address arguments that the Second Circuit has not
addressed. That state of affairs has not changed; the
Second Circuit still has not addressed Petitioners’
argument because it was found to be forfeited. It does
not matter whether this argument “is a purely legal
question” or “was pressed in the supplemental briefing” to
the Second Circuit, because the Second Circuit expressly
declined to address it. Thus, if this Court were to grant
certiorari on Petitioners’ second question, it would be
acting as the court “of first view” regarding this issue,
which this Court has made clear time and again is
something it does not do. See Cutter v. Wilkinson, 544
U.S. 709, 718 n.7 (2005) (declining to address an argument
not addressed by the lower court because “we are a court
of review, not of first view”). Petitioners offer no reason
for this Court to depart from its longstanding practice of
refusing such procedurally improper arguments.

8
Second, the Second Circuit did not merely decline
to address Petitioners’ argument; it held that the
argument was “not properly raised [and therefore]
ha[s] been forfeited[.]” Pet. App. 3. This Court left that
purely procedural determination to the judgment of the
Second Circuit, holding that it was up to the Second
Circuit “whether to determine [the argument’s] merits[.]”
Pet. App. 7. The Second Circuit did so. Accordingly,
if Petitioners want this Court to freshly consider this
forfeited argument, they would first have to persuade
this Court that the Second Circuit erred in making that
procedural determination.
Yet, Petitioners do not even argue that the Second
Circuit erred or abused its discretion in finding their
argument forfeited. Pet. App. 19, 35-37. Instead, Petitioners
claim to be offering the Court the gift of “optionality.”
Id. 36. If this Court were to certify Petitioners’ second
question, however, it would not only have to assume the
role of a court “of first view,” it would have to decide that
the Second Circuit exceeded its authority or committed
reversible error by finding Petitioners’ argument forfeited,
and it would have to do so sua sponte because Petitioners
have not raised that procedural issue for potential review.
Even Petitioners seem to recognize that obtaining
review of this question is not appropriate, breezing
through their argument in favor of certiorari in little more
than two pages and citing no legal authority to justify
their desired outcome. Petitioners’ groundless request
for review should be denied.

9
II. This Case Is Not the Right Vehicle to Properly
Address Dudenhoeffer’s “More Harm Than Good”
Standard
Petitioners’ primary question presented is virtually
identical to the question presented in their prior petition
for certiorari. Their only argument why review of this
question is warranted is their citation of two recent
decisions by the Eighth Circuit that, they claim, have
“deepened” the purported “circuit split that led this Court
previously to grant certiorari.” Pet. 1. Respondents have
already argued to this Court why Petitioners’ position
on this issue is deeply misguided and would vitiate the
central holding of Dudenhoeffer that “ESOP fiduciaries
are subject to the same duty of prudence that applies to
ERISA fiduciaries in general[.]” Dudenhoeffer, 573 U.S.
at 412. See Br. for Resp’ts 12-36, 45-57; Br. in Opp. to
Pet. 10-23. These arguments continue to militate against
granting certiorari.
But, even if this Court believes that the “circuit
split” Petitioners purport to identify is real, and that
Dudenhoeffer’s “more harm than good” standard needs
further explication, this case is the wrong vehicle for
that project, because the additional arguments raised by
Petitioners and the Government when this case was first
before this Court cannot be evaluated as part of this case.
Whether the Second Circuit’s decision in this case
conflicted with decisions of the Fifth and Sixth Circuits
was the gravamen of Petitioners’ original question
presented. The parties, the Government and various
amici briefed and argued that issue thoroughly. When
it came time for this Court to rule on the merits of this

10
case, it had an ample legal record from which to draw to
determine whether Respondents’ allegations satisfied
the “more harm than good” standard. Petitioners do not
contest otherwise.
The Court elected not to make that determination,
however, instead choosing to send the case back to the
Second Circuit to potentially consider the new arguments
made by Petitioners and the Government. Pet. App. 7.
Indeed, the Court explained that it was taking that action
“in light of [its] statement in Dudenhoeffer that the views
of the ‘U.S. Securities and Exchange Commission’ might
‘well be relevant’ to discerning the content of ERISA’s duty
of prudence in this context[.]” Id. (quoting Dudenhoeffer,
573 U.S. at 429). The Court may have granted certiorari
on Petitioners’ original question focused on the interplay
of general and specific factual allegations under the “more
harm than good” standard, but, having been presented
with Petitioners’—and especially the Government’s—
arguments in favor of different ways of applying that
standard, the Court now wanted those additional
viewpoints to be vetted by the lower court (if procedurally
practicable) so that all of these proposed applications of
Dudenhoeffer could be considered together.
Unfortunately, Petitioners failed to properly preserve
their argument before the Second Circuit. Pet. App.
3. Petitioners’ argument about the obligation of ESOP
fiduciaries to act on inside information is not, therefore,
properly before this Court. The same holds true for the
Government’s argument that the federal securities laws’
pleading standard should primarily inform the application
of “more harm than good”—that argument was also held
by the Second Circuit to have been “not properly raised”
and therefore was not addressed by that court. Id.

11
As Petitioners concede, if the Court grants certiorari
only on their first question presented, neither Petitioners’
inside-information argument nor the Government’s
securities-laws argument can be considered by this Court.
Any decision the Court reaches on the merits of that
question, therefore, will be fundamentally incomplete.
It makes little sense to rule on “more harm than good”
in such an artificially circumscribed fashion. Whatever the
Court might hold on Petitioners’ primary question, it will
not tell the lower courts how to deal with other defendants
who argue that ESOP fiduciaries have no duty to use
inside information in their fiduciary decision-making or
that a duty-of-prudence claim cannot be pleaded against
an ESOP fiduciary absent a concomitant obligation under
the securities laws. The lower courts will gain little clarity;
in fact, greater confusion is the much more likely result.
The Court presumably understands the deficiency now
inherent in Petitioners’ first question, which is why it did
not decide that question the first time it was presented,
even though it could have done so (while simply declining
to address the arguments that went beyond its scope). The
only thing that has changed since then is that the Eighth
Circuit has issued two opinions, Allen v. Wells Fargo & Co.,
967 F.3d 767 (8th Cir. 2020), and Dormani v. Target Corp.,
2020 WL 4289987 (8th Cir. July 28, 2020), neither of which,
as Petitioners tacitly admit, addresses Petitioners’ insideinformation argument or the Government’s securitieslaws argument. Pet. App. 21-23. The “circuit split” that
Petitioners claim has “deepened” has only done so within
the narrow scope of their first question; there is still no
word from any circuit court on whether Petitioners’, or the
Government’s, additional arguments have merit.

12
What is more, if the Court takes up the first question
now, then at some point in the future chooses to adopt
a version of the inside-information argument or the
securities-laws argument in some other case, it will likely
render the Court’s ruling in this case moot, regardless of
which way the Court rules now. The Court presumably
recognized that concern last time as well, providing it
with yet another reason not to rule on Petitioners’ original
“more harm than good” question until all the germane
arguments could be considered at the same time.
Every substantive argument Petitioners made in favor
of certiorari of their first question was made to this Court
last time—not to mention to the Second Circuit and the
district court on multiple occasions. The only reason the
parties are debating whether this Court should grant
certiorari on virtually the same question as it did a little
over a year ago is Petitioners chose to make an argument
in their merits briefing that was not encompassed by their
question presented or addressed by the Second Circuit.
But the bells of Petitioners’ and the Government’s new
arguments cannot be unrung. This Court should wait for
the right vehicle to grapple with these issues in a complete
manner; it should not rule on “more harm than good” in
a piecemeal fashion that only will only sow confusion in
the lower courts.

13
CONCLUSION
The petition for certiorari should be denied.
				Respectfully submitted,
Samuel E. Bonderoff
Counsel of Record
Zamansky LLC
50 Broadway, 32nd Floor
New York, NY 10004
(212) 742-1414
samuel@zamansky.com
Counsel for Respondent

